 DEPARTMENT OF HOMELAND SECURITY

              Office of Inspector General


                       Review of the USCIS
                   Benefit Fraud Referral Process
                                     (Redacted – Revised)




  The Department of Homeland Security, Office of Inspector General, has redacted this report for public
  release. A review under the Freedom of Information Act will be conducted upon request.




OIG-08-09                                                                                      April 2008
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                             April 29, 2008


The Department of Homeland Security (DHS) Office of Inspector General was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General Act
of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the Fraud Detection and National Security program of United States
Citizenship and Immigration Services. The program endeavors to detect and deter immigration
benefit fraud. This report is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     Richard L. Skinner
                                     Inspector General
Table of Contents/Abbreviations


Executive Summary .............................................................................................................................. 1

Background ........................................................................................................................................... 2

Results of Review ................................................................................................................................. 5
   Strategic Limitations Hamper USCIS Benefit Fraud Efforts ......................................................... 6
   Recommendations......................................................................................................................... 17
   Program Data System Requires Restructuring ............................................................................. 18
   Recommendations......................................................................................................................... 26
   Field Office Management and Organization................................................................................. 26
   Recommendations......................................................................................................................... 32
   Management Comments and OIG Analysis ................................................................................. 32

Appendices
     Appendix A:              Purpose, Scope, and Methodology...................................................................... 38
     Appendix B:              USCIS FDNS Organizational Chart ................................................................... 40
     Appendix C:              Fraud Referral Sheet ........................................................................................... 41
     Appendix D:              Request To ICE................................................................................................... 45
     Appendix E:              Sample Slides From Site Visit Training ............................................................. 46
     Appendix F:              FDNS-DS Data Fields......................................................................................... 47
     Appendix G:              Additional Survey Responses ............................................................................. 48
     Appendix H:              Memorandum of Agreement............................................................................... 49
     Appendix I:              Major Contributors to this Report....................................................................... 54
     Appendix J:              Report Distribution ............................................................................................. 55

Abbreviations

     CISCOR                 Citizen and Immigration Service Centralized Oracle Repository
     CLAIMS3                Computer-Linked Application Information Management System 3
     DHS                    Department of Homeland Security
     FDNS                   Office of Fraud Detection and National Security
     FDNS-DS                Fraud Detection and National Security Data System
     ICE                    United States Immigration and Customs Enforcement
     OIG                    Office of Inspector General
     SCCLAIMS               Service Center CLAIMS data system
     USCIS                  United States Citizenship and Immigration Services
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                 The Office of Fraud Detection and National Security (FDNS) in United States
                 Citizenship and Immigration Services (USCIS) has primary responsibility for
                 resolving immigration petitions and applications with potential national
                 security, public safety, and immigration benefit fraud indicators. Since its
                 inception in 2004, FDNS identified four general strategies for detecting and
                 deterring immigration benefit fraud: 1) obtain from adjudicators all petitions
                 with objective fraud indicators, or articulable fraud, and refer these petitions
                 to United States Immigration and Customs Enforcement (ICE) Office of
                 Investigations for review; 2) develop a database to enhance FDNS’ ability to
                 analyze fraud; 3) track all petitions with articulable fraud indicators from
                 referral to completion; and 4) identify and analyze fraud patterns and trends
                 using data mining and pattern recognition to search new immigration petitions
                 against known fraud indicators.

                 With the notable exception of conspiracies identified for ICE investigation,
                 FDNS had limited measurable effect on benefit fraud. FDNS’ resources were
                 diverted by higher priority national security and public safety background
                 checks and by the labor-intensive commitment to refer all articulable fraud
                 petitions to ICE for review. USCIS adjudicators referred less than one percent
                 of immigration benefit petitions to FDNS as having articulable fraud
                 indicators. With competing priorities, ICE Special Agents in Charge opened
                 criminal investigations on less than one percent of these adjudicator benefit
                 fraud referrals. Some FDNS field partners in the service centers, districts, and
                 ICE benefit fraud units were dissatisfied with the low priority FDNS gave to
                 adjudicator referrals, as well as the quality and timeliness of FDNS responses.
                 The FDNS Data System had labor-intensive data entry requirements, and was
                 inadequate for case management, program oversight, and data analysis.

                 Agreement by ICE and USCIS to revisit the 100% fraud referral policy
                 provides an opportunity for USCIS to develop strategic performance measures
                 for combating fraud. We made three recommendations to ICE and USCIS to
                 improve coordination on fraud referrals, and an additional seven
                 recommendations to USCIS to encourage adjudicator participation in fraud
                 detection and to restructure or replace FDNS’ data system to support FDNS’
                 business process. All ten recommendations were resolved, however they
                 remain open pending receipt of additional information on implementation.



                        Review of the USCIS Benefit Fraud Referral Process

                                             Page 1
Background
                            Within the Department of Homeland Security (DHS), the United States
                            Citizenship and Immigration Services (USCIS) adjudicates all immigration
                            benefit claims, and the United States Immigration and Customs Enforcement
                            (ICE) Office of Investigations conducts
                            criminal investigations of immigration                  FDNS OFFICER:
                            benefit fraud for possible prosecution by        “We clearly must improve the
                            United States Attorney Offices. Immigration         entire fraud identification,
                                                                                referral, and investigation
                            benefit fraud is “the willful misrepresentation  process. However, regardless
                            of material fact on a petition or application to    of the number of problems
                            gain an immigration benefit.” 1 Benefit fraud     that exist between and within
                            might involve a conspiracy in which an              Adjudications, FDNS, and
                            organization profits from thousands of             ICE,   we are miles ahead of
                                                                                where we were three years
                            fraudulent applications, or it might be what       ago in our ability to identify
                            DHS refers to as single-scope fraud, such as         and manage immigration
                            two individuals agreeing privately to a                   benefit fraud.”
                            fraudulent marriage.

                            Prosecution is only one option for addressing immigration benefit fraud. Only
                            a fraction of the immigration benefit fraud cases identified by USCIS
                            adjudicators lead to ICE criminal investigation and prosecution by a United
                            States Attorney.

                            If USCIS can establish fraud, they have the authority to issue a Notice To
                            Appear, which places the applicant in removal proceedings before an
                            immigration judge. Reentry into the United States after a removal order and
                            without a waiver is an aggravated felony. Issuing a Notice to Appear may be
                            preferable to prosecution when the primary conspirators are not United States
                            citizens or when a criminal trial would require disclosure of sensitive law
                            enforcement or intelligence information. USCIS may also apply certain
                            administrative penalties, bar future applications, and prevent an attorney from
                            representing applicants in the immigration process. Finally, USCIS may
                            change regulations, policies, and procedures that have created loopholes for
                            fraud.

                            USCIS employs about 3,500 adjudicators at locations that include its
                            Washington, DC, headquarters; regional service centers in California,
                            Nebraska, Texas, and Vermont; the Missouri national benefits center; 8 field
                            asylum offices; and the 33 USCIS districts. Adjudicators receive and review

1
    http://www.ice.gov/partners/idbenfraud/index.htm.

                                    Review of the USCIS Benefit Fraud Referral Process

                                                         Page 2
petitions from aliens who seek an immigration or residency benefit. Benefits
include citizenship, temporary or permanent residence, and employment
authorization. The petitioner’s eligibility for such a benefit may be based on
various grounds, including family ties, employment, or protection based on
political conditions or natural disasters in the applicant’s country of origin.
Adjudicators process approximately six million petitions a year.
Approximately two million of the adjudications are conducted in district
offices, and may include a personal interview between the applicant and an
adjudicator. Four million adjudications are conducted in the regional service
centers, and do not include a personal interview. USCIS regional service
centers are organized according to the types of petitions they process, and
therefore receive applications from across the nation.

The Office of Fraud Detection and National Security (FDNS) has 315
officers; 230 are at USCIS field offices and 85 at FDNS headquarters (see
Appendix B: USCIS FDNS Organizational Chart). FDNS has four main areas
of responsibility:

   •   Resolution of petitions for which the applicant’s name was in the DHS
       Interagency Border Inspections System to determine whether the alien
       is a national security risk;

   •   Benefit fraud assessments to measure the level of fraud in certain
       petition types;

   •   Religious worker compliance reviews verifying that religious
       organizations petitioning for religious workers are legitimate; and

   •   Review of petitions forwarded from adjudicators when the adjudicator
       determines there is articulable fraud, and referral of these petitions to
       ICE to consider for investigation.

Articulable fraud encompasses any application with concrete evidence that
leads the adjudicator to suspect fraud. This can include demeanor,
contradictory statements on material facts, atypical or boilerplate applications,
suspected fraudulent documents, or genuine documents that appear to have
been obtained through misrepresentation.

ICE established four benefit fraud units, which range in staffing from one to
eight special agents, to work with the four USCIS fraud detection units in the
service centers. The ICE benefit fraud units determine which ICE office
would have jurisdiction and whether the case falls within the case acceptance
guidelines of the United States Attorney’s Office with jurisdiction. The ICE

       Review of the USCIS Benefit Fraud Referral Process

                            Page 3
                            benefit fraud units also conduct additional checks
                            and inquiries to evaluate the likely magnitude of the            FDNS OFFICER:
                                                                                             “My experience has
                            fraud and develop sources of information. Most of                been that ICE is not
                            the cases that ICE accepts for investigation involve            willing to take a case if
                            large-scale conspiracies or fraud rings, or aliens               the U.S. Attorney's
                            who are a national security or public safety risk.                   office will not
                                                                                                  prosecute.”
                            According to ICE, “benefit fraud is an extremely
                            lucrative form of white-collar crime that is complex and challenging to
                            investigate, often involving sophisticated schemes and multiple co-
                            conspirators that take years to investigate and prosecute.” 2 Three federal
                            government agencies, the Departments of Homeland Security, State, and
                            Labor, are involved in issuing immigration benefits. Additional federal
                            agencies, including the Internal Revenue Service, Social Security
                            Administration, and the Department of Health and Human Services, are
                            affected by immigration benefit fraud.

                            Immigration benefit fraud may also affect state and local governments, such
                            as motor vehicle registration and social services. To address immigration
                            benefit fraud, ICE has organized task forces in major cities to prioritize and
                            coordinate investigations. ICE then develops these leads into cases for United
                            States Attorneys Offices to pursue in federal court. ICE investigated 5,351
                            immigration benefit-related cases in FY 2004, which resulted in 533
                            convictions. While some of the leads for ICE investigations come from
                            USCIS adjudicators, most come from other task force members, prior
                            investigations, and informants (see Figure 1: ICE Investigations of FDNS
                            Referrals). The relatively small number of USCIS cases ICE investigates
                            must therefore be seen in the context of a broad range of sources from which
                            benefit fraud investigations may be initiated, and an even broader range of
                            criminal violations ICE may investigate.




                            Petitions arrive at service center loading docks by the truckload each day
                            Source: OIG photograph of USCIS immigration benefit petitions

2
    http://www.ice.gov/partners/idbenfraud/index.htm.

                                    Review of the USCIS Benefit Fraud Referral Process

                                                         Page 4
                          Figure 1: ICE Investigations of FDNS Referrals

                                                      ICE Investigations




                                                                                                   5,212

                                                                                                    139

                                         53,376




                                              53,376 Non-Benefit Fraud Immigration Cases
                                               5,212 Non-FDNS Benefit Fraud Cases
                                                 139 FDNS Benefit Fraud Referral Cases
                          Sources: DHS Office of Immigration Statistics, FDNS, ICE internal statistics



Results of Review
                          DHS has initiated programs within USCIS and ICE to detect and deter
                          immigration benefit-related fraud. The creation of FDNS, the ICE benefit
                          fraud units, and the ICE benefit fraud task forces reflect a needed shift in DHS
                          priorities. With a mission to ensure the “right applicant receives the right
                          benefits in the right amount of time,” USCIS has a difficult role. 3 It must
                          balance expeditious adjudication for legitimate applicants while denying
                          benefits to aliens who have used fraudulent documents or false statements.
                          Before DHS initiated its anti-fraud programs in USCIS and ICE, there were
                          no formal strategies or institutionalized procedures for tackling fraud in the
                          immigration benefit caseload. FDNS and the ICE benefit fraud units and task

3
    http://www.uscis.gov/files/nativedocuments/USCISSTRATEGICPLAN.pdf, page 7.

                                 Review of the USCIS Benefit Fraud Referral Process

                                                      Page 5
           forces established and staffed their programs quickly. Despite the challenges
           of internal restructuring faced by all DHS components in the early years,
           USCIS and ICE established goals and working relationships that will remain
           essential to the anti-fraud initiative’s success. We commend DHS for
           developing an official fraud detection and deterrence program, and for the
           significant enhancements USCIS and ICE have made to their anti-fraud
           programs.

           However, the current USCIS strategy for addressing immigration benefit fraud
           yields little measurable return. Without clearly defined benefit fraud
           indicators or a manageable referral policy, most FDNS resources were spent
           on background checks, benefit fraud assessments, and religious worker
           compliance reviews. USCIS adjudicators referred less than one percent of
           adjudicated cases for articulable fraud and their referrals were a low priority
           within FDNS. Weaknesses in the methodology used for benefit fraud
           assessments constrained FDNS’ ability to make informed policy decisions.
           The Fraud Detection and National Security Data System (FDNS-DS) was not
           designed to support its business process, and is not adequate for case tracking,
           data analysis, or program management and oversight. Furthermore,
           insufficient coordination with field partners in service centers and districts,
           and inadequate monitoring of FDNS field offices, reduced the support FDNS
           field officers received while conducting fraud detection and deterrence
           activities.

Strategic Limitations Hamper USCIS Benefit Fraud Efforts
           Current DHS strategies limit the agency’s effectiveness in detecting and
           deterring immigration benefit fraud. USCIS Adjudicators are required to refer
           all articulable fraud to FDNS. Similarly, FDNS is required to refer all fraud
           cases to ICE to accept for investigation or, as is most often the case, to
           decline. Managers at both FDNS and the ICE Office of Investigations have
           recognized that the 100% referral policy is not feasible, as ICE has the
           resources to investigate only a small fraction of the cases it receives. In
           practice, the 100% referral process can divert resources and delay adjudication
           without providing additional information to the adjudicator. However, neither
           office had developed an alternative at the time we completed our fieldwork,
           nor set a timeline for deciding on an alternative.

           The 100% Fraud Referral Policy

           The 100% referral policy has diverted USCIS from identifying strategies that
           could have a greater effect on fraud. While prosecution is the most effective
           tool available to ICE, USCIS also has a wide range of administrative options

                  Review of the USCIS Benefit Fraud Referral Process

                                       Page 6
available. In addition, because it receives the applications and issues the
decisions, USCIS can measure the effectiveness of its anti-fraud policies on its
immigration benefit petition caseload. While asylum reform in the mid-1990s
is an extreme example, it illustrates the value of administrative options.
Delinking the asylum application from work authorization, while placing
aliens who were not granted asylum in removal proceedings, caused a sharp
drop in asylum applications from more than 125,000 to less than 50,000 a
year. As DHS restructures its process, USCIS has an opportunity to focus
more of its efforts on having a measurable effect on the immigration benefit
application caseload, whether it is fewer applications, more denials for fraud,
or a shift in application patterns.

Based on a February 2006 Memorandum of Agreement, USCIS was required
to refer all articulable fraud cases to ICE. As described in Figure 2: FDNS
Referral Flow Chart, the referral process is long and complex. Procedures
require adjudicators reviewing benefit applications to use a four-page Fraud
Referral Memorandum to send all cases with articulable fraud to the local
FDNS office (see Appendix C: Fraud Referral Sheet).

Once FDNS officers receive Fraud Referral Memorandums, they check
government and commercial databases, and the Internet, to determine whether
there is fraud. If further evidence of fraud is determined, the FDNS fraud
detection unit or supervisory immigration officer refers the case to the
regional ICE benefit fraud unit using a Request To ICE memorandum (see
Appendix D: Request to ICE). The ICE benefit fraud unit then reviews the
case to determine whether an investigation is warranted. The ICE benefit
fraud units also conduct additional checks and inquiries to evaluate the likely
magnitude of the fraud and develop sources of information. If the ICE benefit
fraud unit declines the case or does not respond to the referral within 60 days,
FDNS regains jurisdiction and either conducts additional system checks,
conducts a field visit, or refers the case back to the adjudicator to make a
decision on the available evidence.




       Review of the USCIS Benefit Fraud Referral Process

                            Page 7
Figure 2: FDNS Referral Flow Chart

  USCIS Adjudicators         Articulable Fraud?             No
                                                            Denial / Notice to Appear /
                                                            Request for Evidence / Approval
                                                 Yes
                              100% Referral to FDNS


  USCIS FDNS                 Articulable Fraud?             No
                                                            Return to Adjudicator
                                                 Yes
                              100% Referral to USICE


  USICE Benefit Fraud Unit      Case Accepted?              No
                                                            Decline / No Response in 60 Days
                                                 Yes
                           Prioritized USICE Referral


  USICE Office                 Case Accepted?               No
                                                            Return to USICE Benefit Fraud Unit
                                                   Yes
                              Prioritized Investigation


  United States Attorney       Case Accepted?               No
                                                            Return to USICE Office
                                                  Yes
                               Prioritized Prosecution


Sources: USCIS, ICE

When DHS originally established the policy of 100% fraud referrals from
adjudicators through FDNS to ICE, little information was known about the
number or type of likely referrals. FDNS reported referring 1,890 cases to
ICE in FY 2006. Most of those referrals were single-scope fraud, limited to
one petitioner and beneficiary without an underlying conspiracy or major
financial incentive, including many single-scope marriage fraud referrals.
Without additional concerns, these referrals are unlikely to be accepted for
investigation and eventual prosecution. As a result, between 65% and 70% of
the referrals to ICE since 2004 were declined for additional investigation.

Adjudicators Are Not Referring All Articulable Fraud To FDNS

Not only did the 100% referral policy cause difficulties for FDNS and ICE, it
does not appear that all adjudicators followed the policy. In the first 5 months

       Review of the USCIS Benefit Fraud Referral Process

                             Page 8
of FY 2007, FDNS received 7,738 referrals from USCIS adjudicators, which
was less than one percent of petitions adjudicators processed. Moreover,
FDNS officers and USCIS adjudicators said that not
all adjudicators were referring petitions when they        FDNS OFFICER:
identified fraud indicators. In our survey, 79% of          “An adjudicator
                                                           actually said to me
FDNS officers said that FDNS receives most                 yesterday, ‘We are
referrals from only a few USCIS adjudicators.              not expected to look
                                                             for fraud unless it
USCIS adjudications officers and managers are rated           jumps out at us.’"
on productivity based on numerical formulas for
expected case completions. Identification of
potential fraud, national security, and public safety cases is rated under less
precise criteria, such as quality and professionalism. One service center
described identification of ineligible applicants as an “ethical and legal”
obligation, to be met “regardless of the effect” on the adjudicator’s
performance rating. Referring fraud does have a detrimental effect on an
adjudicator’s productivity, as the adjudicator must complete a four-page
FDNS referral sheet with a narrative to explain why fraud or a security risk is
suspected. We observed little positive reinforcement for referrals to FDNS:
FDNS backlogs and the low prioritization of adjudicator referrals meant that
referred petitions might be returned without resolution or after a long delay.

Other Priorities Limit FDNS Responsiveness to Adjudicator Referrals

FDNS did not have the capacity to manage the referrals received from USCIS
adjudicators. Because of the 100% referral requirement, FDNS accrued a
backlog of adjudicator referrals it needed to review and forward to ICE. It
also accrued a backlog of cases declined by ICE, for which FDNS officers
could conduct additional research or conduct a field site inquiry to verify facts
for the adjudicator. FDNS received about 18,000 referrals from USCIS
adjudicators, and returned about 4,000 Statements of Finding to adjudicators,
including those for public safety referrals. In February 2007, FDNS had about
4,000 adjudicator fraud referrals that had not yet been entered into FDNS’
data system for record keeping or management. FDNS also accrued backlogs
of national security and public safety background checks. We were told that
in January 2007, there were about 7,000 backlogged national security checks,
but the number of public safety cases backlogged had not been estimated.
Benefit fraud assessments were behind their original schedules, and the
religious worker compliance review had accrued a backlog of about 4,000
cases by February 2007.




       Review of the USCIS Benefit Fraud Referral Process

                            Page 9
                       These backlogs themselves created another caseload: legal challenges by
                       applicants whose petitions were delayed. When the government does not
                       issue a decision within the timeframe specified
                       for that decision, applicants may file a writ of       FDNS OFFICERS:
                       mandamus to compel the government to                  “FDNS-HQ, at times,
                                                                          appears to be out of touch
                       provide a response. Delays in naturalization      with the field and what our
                       applications can be challenged under another      limitations are with regards
                       provision of the law as well. 4 While officials     to our ability to perform
                       at some of the field sites we visited said that     newly assigned tasks and
                       writs of mandamus had always been a routine              responsibilities.”
                                                                                       zzz
                       part of their adjudicative process, others          “I believe there is a lot of
                       indicated that more writs have been filed due to   discounting the amount of
                       the introduction of background checks and          time needed to do the field
                       FDNS case referrals. Locating mandamus               officer's job. I've often
                                                                           heard on teleconferences
                       cases, obtaining review by USCIS attorneys,         when a new HQ directed
                       and determining whether to retain the case or       activity is being planned,
                       return it to adjudications without providing          statements like ‘that
                       additional information also affected available      shouldn't take that much
                       FDNS resources.                                    time’ or ‘I don't anticipate
                                                                                   much impact.’”
                       FDNS and ICE Committed To
                       Restructuring Referrals

                       USCIS and ICE officials, including the director of FDNS and the acting
                       deputy assistant director of the ICE Office of Investigations, recognized that
                       the policy of referring 100% of articulable fraud to ICE needed to be
                       reexamined and that the 2006 Memorandum of Agreement was under review.
                       With limited staffing, ICE benefit fraud units have difficulty managing the
                       FDNS referral workload. USCIS service centers, and therefore the ICE
                       benefit fraud units, receive petitions nationwide. The ICE benefit fraud units
                       must determine the ICE office and United States Attorney Office having
                       jurisdiction, and determine whether the case falls within the United States
                       Attorney’s prosecutorial guidelines. According to an ICE survey, about half
                       of the 94 United States Attorney Offices require a major organized conspiracy
                       or criminal activities to consider prosecution, and more than half of those
                       remaining had no guidance or said they accepted on a case-by-case basis. In
                       practice, ICE benefit fraud units refer only about one-third of FDNS referrals
                       to an ICE office, and only about five percent of the FDNS referrals result in
                       investigations for possible criminal prosecution. Prioritizing referrals to ICE
                       to meet investigative and prosecutorial guidelines can eliminate unnecessary
                       work and delays.

4
    8 USC § 1447(b).

                              Review of the USCIS Benefit Fraud Referral Process

                                                   Page 10
                          USCIS service centers have recently instituted two new procedures to address
                          the high volume of cases the FDNS fraud detection units were receiving from
                          adjudicators. New service center background-check units now perform the
                          systems checks on national security and public safety cases that would
                          previously have been referred to FDNS fraud detection units. New service
                          center fraud units coordinate directly with adjudicators on fraud referrals that
                          previously would have been forwarded directly to FDNS fraud detection units.
                          These changes were intended to enable FDNS fraud detection units to focus
                          more time on data mining, large-scale fraud cases, and fraud deterrence.
                          However, fraud detection units are still responsible for working through their
                          existing backlog of national security and public safety cases, referrals to ICE
                          from the smaller field offices and from the service center, and benefit fraud
                          assessment and compliance review case preparation. At some service centers,
                          the FDNS fraud detection units estimated that it would be a year before their
                          backlogs were eliminated. In addition, immigration officers in USCIS
                          districts and asylum offices continued to manage national security and public
                          safety background checks, benefit fraud assessments and compliance reviews,
                          and adjudicator fraud referrals.

                          Improved Benefit Fraud Indicators Are Needed

                          The 100% referral policy diverted FDNS resources from developing effective
                          strategies for deterring immigration benefit fraud using USCIS’ administrative
                          authority. Although we conducted extensive research, and requested relevant
                          data, we were not able to identify statistics that indicated that the
                          establishment of FDNS had a measurable effect on benefit fraud. The
                          relevant data we obtained are listed below, but they do not necessarily
                          represent the full range of USCIS anti-fraud activities. For example, cases
                          referred to and accepted by ICE might represent hundreds of individual
                          petitions, and applicants who commit fraud might be denied on other grounds,
                          such as eligibility.

                          Fraud-related data:

                              •   Adjudications included 4,995,445 approvals and 804,967 denials for
                                  immigration benefits, 702,663 approvals and 170,722 denials for
                                  naturalizations, in FY 2006. 5
                              •   Adjudications included fraud denials of less than one percent of
                                  decisions, and less than three percent of all denials, with
                                  approximately 27,377 fraud denials in FY 2006. 6

5
    DHS Performance Analysis System.

                                  Review of the USCIS Benefit Fraud Referral Process

                                                       Page 11
               •   FDNS received 7,738 articulable fraud adjudicator referrals in the first
                   5 months of FY 2007, although adjudicators were expected to refer all
                   articulable fraud cases to FDNS.
               •   Only 131 service center Notices To Appear related to fraud from
                   October 2005 to February 2007, although USCIS issued guidance that
                   fraud was one of its top three priorities for issuing Notices To Appear
                   to place aliens in removal proceedings.
               •   139 referrals were accepted by an ICE office for investigation in FY
                   2006, of the 2,000 benefit fraud cases FDNS referred.
               •   FDNS did not have a reliable process for tracking and reporting the
                   outcome of cases referred by adjudicators.

            Adjudicators Can Contribute More Effectively To Fraud Identification

            USCIS service centers are reviewing some options for integrating adjudicators
            more directly into the fraud detection and deterrence process. These options
            include revising adjudicators’ performance evaluations to include a
            quantifiable measure related to fraud identification, and conducting a pilot
            program to test how adjudicator productivity would be affected by access to
            federal and commercial databases to verify information provided by
            applicants. USCIS districts do not have uniform performance evaluation
            measures for identifying fraud or security risk cases.

            We believe that performance measures and research tools that encourage
            adjudicators to obtain additional evidence to support denials, and more
            effective FDNS screening of applications before
            they are forwarded to adjudicators, might make             FDNS OFFICER:
            100% referral of unresolved petitions to FDNS             “Adjudicators   are an
                                                                       excellent source in
            feasible. At present, however, the most effective           identifying fraud
            use of adjudicator expertise might be to require         indicators, trends, etc.
            adjudicators to document or flag all articulable           Their performance
            fraud cases in a USCIS database, such as                  standards,  however,
            Computer-Linked Application Information                    are geared  to keep
                                                                     backlogs down and/or
            Management System 3, (CLAIMS3) or FDNS-DS,                      current.”
            to deny cases for which the evidence supports a
            denial, and to limit and prioritize the number of
            cases placed on hold and referred to FDNS for resolution.



6
    Ibid.

                   Review of the USCIS Benefit Fraud Referral Process

                                        Page 12
                           Limiting and prioritizing cases need not mean that FDNS prioritizes fraud
                           conspiracies at the expense of identifying and deterring single scope fraud.
                           Rather, USCIS should develop strategies for selecting cases for FDNS
                           research and field inquiries that are likely to have a measurable effect on
                           fraud. Gathering evidence to issue revocations and Notices To Appear on a
                           group of similar but unrelated fraud applications might have as powerful a
                           deterrent effect as securing criminal convictions; so might applying fines and
                           sanctions against individuals who file multiple unsupported petitions. Even
                           without the media coverage that prosecutions attract, USCIS can draw
                           attention to its commitment to “preventing the wrong applicant from obtaining
                           our benefits” by publicizing its administrative actions against immigration
                           benefit fraud on the USCIS public website. 7

                           For this strategy to be effective, however, it is essential that USCIS verify that
                           all adjudicators are referring all articulable fraud cases they encounter. This
                           policy would require that FDNS begin tracking which adjudicators are
                           submitting referrals, and for adjudications supervisors to spot-check the
                           quality of the referrals. Requiring adjudicators to document articulable fraud
                           allows DHS to capitalize on adjudicator expertise.

                           Flagging articulable fraud in an electronic format serves three purposes:

                           •   Adjudicators may share information without a significant loss of
                               productivity;

                           •   FDNS and ICE officers can analyze flagged petitions to identify
                               connections to ongoing fraud cases, develop new conspiracy cases, and
                               determine whether aliens under investigation as criminals or security risks
                               may be more expeditiously removed for an immigration violation; and

                           •   FDNS officers can analyze flagged cases to identify shifting trends and
                               patterns, and to evaluate the effect of anti-fraud initiatives.

                           Benefit Fraud Assessments Require Careful Planning

                           FDNS defined its benefit fraud assessments as an initiative “to measure the
                           integrity of specific nonimmigrant and immigrant applications and petitions
                           by conducting administrative inquiries on randomly selected cases.” 8 FDNS
                           described the goal of the assessments as serving “as a basis to determine the


7
    http://www.uscis.gov/files/nativedocuments/USCISSTRATEGICPLAN.pdf, page 7.
8
    Special Immigrant and Nonimmigrant Religious Workers, 72 Fed. Reg. 20442, page 20444.

                                   Review of the USCIS Benefit Fraud Referral Process

                                                        Page 13
                         need for any changes to existing regulations, policies, and procedures, and
                         legislative remedies.”9

                         FDNS initiated eight benefit fraud assessments, beginning in February 2005.
                         These included assessments of:

                             •   Form I-360 petitions for immigrant religious workers;
                             •   Form I-90 applications to replace a lost, stolen, or destroyed
                                 permanent resident “green card”;
                             •   Form I-140 petitions for skilled and unskilled immigrant workers;
                             •   Form I-589 applications for asylum and withholding of removal;
                             •   Form 1-130 spousal petitions;
                             •   Form I-130 Yemeni family petitions;
                             •   H-1B nonimmigrant work petitions; and
                             •   L-1A nonimmigrant work petitions.

                         The first three of these assessments were
                                                                                        FDNS SURVEY:
                         completed—on immigrant religious workers,                    FDNS officers supported
                         replacement green cards, and employment. Most                      site visits:
                         benefit fraud assessment petitions required a                          zzz
                         field inquiry as well as system checks to verify              84 percent agreed that,
                                                                                      “FDNS field inquiries to
                         material facts, such as the existence of a                    identify and deny some
                         business, religious institution, school, or                    single instance benefit
                         residence, or cohabitation by the petitioner and              fraud are a good use of
                         beneficiary in a spousal visa application. For                   FDNS resources,”
                                                                                                zzz
                         each petition, the FDNS officer summarized the               78 percent agreed that,
                         results and completed a checklist for HQ FDNS                     “Benefit Fraud
                         to evaluate, and HQ FDNS made the final                      Assessments are a good
                         determination on whether fraud existed.                      use of FDNS resources,”
                                                                                                and
                                                                                                zzz
                         While the goal of the benefit fraud assessments               70 percent agreed that,
                         was commendable, the methodology FDNS                         “Compliance Reviews,
                         developed had substantive weaknesses. FDNS                     such as the religious
                         consulted the DHS Office of Statistics to                    worker cases, are a good
                                                                                      use of FDNS resources.”
                         determine the sample size required to measure
                         the absolute level of fraud in a given visa type,

9
 “The USCIS/ICE Anti-Fraud Initiative Progress Report,” submitted by USCIS to the House and Senate Committees on
Appropriations, August 2005.

                                 Review of the USCIS Benefit Fraud Referral Process

                                                      Page 14
but did not work with the Office of Statistics in the later stages of
implementation and analysis. Insufficient planning and incomplete
information on the caseloads under review, coupled with modifications of the
original random samples, limited the reliability and relevance of the results of
the benefit fraud assessments. For example, FDNS restricted its review of
Form I-90 green cards to cards that were lost, stolen, or destroyed, based on
an untested hypothesis that it would find more fraud in this caseload than in
expired I-90 green cards. FDNS initiated its review of employment visas and
selected its sample before realizing that the petitions sampled included only
approved petitions, leaving FDNS to speculate that actual levels would have
been higher if it had reviewed denied cases as well.

The asylum benefit fraud assessment was structured as a random sample of all
asylum decisions, a methodology inappropriate to the caseload. The asylum
caseload has a historical grant rate of about one-quarter of all applications.
High percentages of asylum applicants are placed in removal proceedings
because of material discrepancies in testimony and documentation. Many
genuine refugees obtain false documents to travel. However, the benefit fraud
assessment methodology did not distinguish applications that asylum
adjudicators had referred for removal proceedings for lack of credibility,
fraud, and misrepresentation from those that adjudicators had granted or had
determined did not meet eligibility criteria. In addition, the review checklist
focused on fraud indicators, such as false travel documents, which might not
be relevant to asylum eligibility.

In addition, to meet assessment deadlines, FDNS substituted files when the
original files could not be located within one to two weeks. The number of
missing and substituted cases was not
reported with the assessment results, or                 FDNS OFFICER:
recorded in the FDNS-DS database. Field              “Congress has been told by
officers said that substitutions were not           FDNS that there is a bunch of
unusual.                                             fraud, so Congress is asking
                                                            for the proof. HQ FDNS is
                                                             asking the field to find the
FDNS limited the credibility of its findings.
                                                            fraud so it can be shown to
Officers in headquarters and the field said                 Congress. And I sense HQ
that most of the FDNS officers who were                     FDNS' frustration with the
conducting the complex H-1B and L-1A                           field because we aren't
temporary employment visas had never                         finding it. … Some of the
                                                             leadership personnel have
adjudicated these petitions, and did not have
                                                            never been adjudicators, so
sufficient training or experience to evaluate                they are completely out of
them. FDNS officers at headquarters and in                       touch with reality.”
the field disagreed on whether the assessment
had documented the level of fraud accurately. FDNS had no written standards

       Review of the USCIS Benefit Fraud Referral Process

                            Page 15
                          on what constituted fraud specific to each visa type, and had no specific test
                          for the standard, such as the ability to revoke a grant based on the available
                          evidence.

                          Field staff reported that their findings, though approved by the regional
                          immigration officer, might be overturned by headquarters. Staff in the field
                          and at headquarters said that the fraud rate in the religious worker visa benefit
                          fraud assessment had been revised from more than 40% fraud to its current
                          published level of 33%. Moreover, FDNS projected the results of one
                          assessment on other untested caseloads. For example, although the religious
                          worker fraud assessment reviewed only Form I-360 immigrant petitions,
                          FDNS used the fraud rate in this caseload to justify regulations that applied to
                          Form I-129 nonimmigrant religious worker petitions as well. 10

                          In addition, FDNS inappropriately mingled benefit fraud assessment
                          techniques with anti-terrorism analysis: information that is sufficient for
                          obtaining a rough estimate of the level of fraud in a given caseload is
                          insufficient for drawing conclusions about the behavior or intentions of a
                          small subcategory of petitioners. Each benefit fraud assessment that was
                          completed relied on a simple random sample,
                          resulting in a spread of nationalities that               FDNS OFFICER:
                          reflected their prevalence among immigration          “There  has been a question
                                                                               lately as to why the statistics
                          benefit applicants. In this context, nationals of     on the monthly reports are
                          special interest countries, or countries with         different from that of DS.”
                          ties to terrorism, represented less than ten
                          percent of the sample, with applicants from the Philippines predominating.
                          Basing any national security policy conclusions or decisions on the results of
                          these benefit fraud assessments was therefore inappropriate, but the reports
                          indicated that they were considered.

                          For example, FDNS was reviewing a sample of 14 applicants, 9 of them from
                          the Philippines, when it concluded that petitions for replacement Form I-90
                          green cards were not “being used as a vehicle by terrorists or others intending
                          to do this Country harm.” 11 In another benefit fraud assessment, FDNS
                          reported “100% fraud” from six special interest countries, based on one



10
   http://www.uscis.gov/files/nativedocuments/Relig_Worker_Fraud_Jul06.pdf, page 3.
http://www.uscis.gov/files/pressrelease/RvisaFactSheet19Apr07.pdf, page 1.
Federal Register / Vol. 72, No. 79 / Wednesday, April 25, 2007 / Proposed Rules, pages 20444 (II.B.) and 20448 (IV.A.)
11
   “Form I-90, Replacement of Lost, Stolen and Destroyed Forms I-551, Permanent Resident Cards Benefit Fraud
Assessment (BFA) Final Report,” Office of Fraud Detection and National Security, November 2005, DHS intranet
version.

                                  Review of the USCIS Benefit Fraud Referral Process

                                                       Page 16
                         application each. 12 In the review of Form I-360, religious worker immigrant
                         petitions, 11 of the petitions were described individually because the alien was
                         Muslim or from a special interest country. 13 Of these cases, seven involved
                         simple fraud and one had already been identified by ICE for an ongoing
                         criminal or national security investigation. Despite a lack of evidence from
                         this sample that religious worker petitions were compromising national
                         security—or that the benefit fraud assessment methodology could identify
                         potential national security threats—the assessment reported plans for a joint
                         USCIS and ICE assessment of religious worker petitions “by nationals of
                         special interest countries.” 14

                Recommendations
                         We recommend that the USCIS Director and the ICE Assistant Secretary:

                         Recommendation #1: Replace the USCIS and ICE 100% Referral
                         Memorandum of Agreement with a policy that limits and prioritizes USCIS
                         adjudicator referrals to FDNS, and FDNS referrals to ICE.

                         We recommend that the USCIS Director:

                         Recommendation #2: Establish performance measures for fraud detection in
                         the USCIS immigration benefit caseload.

                         Recommendation #3: Require the National Security and Records
                         Verification Directorate to develop a quarterly report on fraud goals and
                         accomplishments for the USCIS Director.

                         Recommendation #4: Require adjudicators to identify petitions with
                         articulable fraud in an electronic system accessible to FDNS, to begin
                         establishing fraud patterns and trends.

                         Recommendation #5: Establish a quarterly reporting requirement from
                         USCIS Adjudications to the USCIS Director on adjudicator participation in
                         identifying articulable fraud.


12
   “U.S. Citizenship and Immigration Services (USCIS) I-140 (Immigrant Petition for Alien Worker) Employment Based
(EW3/E31) Benefit Fraud Assessment Final Report,” Office of Fraud Detection and National Security, June 2006, DHS
intranet version.
13
   “Bureau of Citizenship and Immigration Services (CIS) I-360 Religious Workers Benefit Fraud Assessment Final
Report,” Office of Fraud Detection and National Security, August 2005, DHS intranet version.
14
   “Bureau of Citizenship and Immigration Services (CIS) I-360 Religious Workers Benefit Fraud Assessment Final
Report,” Office of Fraud Detection and National Security, August 2005, DHS intranet version.

                                 Review of the USCIS Benefit Fraud Referral Process

                                                      Page 17
Program Data System Requires Restructuring
          For USCIS to have a measurable effect on fraud, it needs to restructure its
          database, FDNS-DS, to support its fraud detection and deterrence mission.
          The database was built before FDNS fully defined its program goals and its
          role in assisting both USCIS adjudicators and ICE investigators. The database
          therefore does not support case tracking, provide management and oversight
          reports, or house data necessary to identify fraud or measure the deterrent
          effect of DHS criminal and administrative measures. Some of the database’s
          flaws have been addressed in system upgrades, but structural defects in the
          planning stages limit the improvements that can be effected through upgrades.

          FDNS developed the database in 2004 and released it for use in June 2005.
          Based on what we learned from interviews with officers involved in the initial
          stages of development, a review of planning documents, and of the database’s
          structure, we determined that the database design process was flawed. Our
          review indicated that the database was built without first defining FDNS’
          business process to identify data fields necessary to track case referral and
          completion. Although a data working group was formed, the group was not
          consulted on the choice of the software. FDNS management and the Office of
          the Chief Information Officer elected to use software available from a
          company already under contract.

          FDNS officers involved in the initial                     FDNS OFFICER:
          development said that headquarters personnel            “FDNS-DS is a difficult
          could not agree on how the FDNS anti-fraud              Data System to use and
                                                                    navigate. Constant
          process would work, difficult decisions were               design change and
          tabled and never resolved, and there was                    inconsistent data
          inadequate communication between the data              collection and completely
          working group and the contractors. When                    manual data entry
          FDNS-DS was introduced to the field, it did not        requirements   have made
                                                                 system acceptance by end
          have many of the requested functions, had not          users almost impossible.”
          been field-tested, and had not successfully
          transferred data from legacy systems. At the
          time of our review, the system was not compatible with other DHS case
          management or commercial databases, and FDNS officers were required to
          manually reenter large quantities of data that were available in other DHS
          databases.

          Database Support of Petition Referral Process Is Necessary

          FDNS-DS was not designed to document FDNS’ workflow. The database
          provides a data field to track what cases have been referred to ICE and FDNS’

                 Review of the USCIS Benefit Fraud Referral Process

                                      Page 18
understanding of where they were in the ICE process. However, there is no
single data field in which FDNS officers document the outcome of USCIS
referrals that are declined by ICE. Managers cannot obtain reliable reports on
whether fraud was identified, what the FDNS officers did to complete cases,
or even if the FDNS officers informed USCIS adjudicators that the officer
completed the case. It is necessary to open each case or file individually and
review several data fields under different menus to determine what has
happened.

When we interviewed USCIS and FDNS managers in the field, one recurrent
complaint was that FDNS-DS is poorly designed and lacks case tracking and
program management capabilities. In fact, most of the national statistics in
use at the time of our review were headquarters’ compilations of data tracked
manually at the field level. The case tracking and management reports that
field office managers showed us, including workload, backlogs, scheduled site
visits, and cases pending with ICE, were compiled manually, usually in Excel
spreadsheets. The staff of the operations branch at FDNS headquarters
confirmed that they are not able to obtain workload reports from FDNS-DS.
With delays in data entry and incomplete records, FDNS can provide only
rough estimates of its backlogs and the time that will be required to address
them.

Structural weaknesses in the design of FDNS-DS were compounded because
field officers lacked tools to analyze the information it contained. The
database was originally envisaged to work with a query tool called Analytics.
Analytics would have enabled FDNS officers to automatically draw
information from the largest DHS immigration benefit application data
management system into FDNS-DS, conduct research within the system, and
develop management reports to conduct data analysis on the information
within FDNS-DS. Analytics was delayed for more than a year after
FDNS-DS was launched, and the initial attempt to introduce Analytics in
December 2006 was unsuccessful. As of May 2007, FDNS managers
projected that the interface between Analytics and the largest DHS benefit
application data management system would be relaunched in mid-2007, and
that officers would be able to use the feature to query and create management
reports from FDNS-DS within a year. However, without clearly defined case
processing stages and corresponding data entry fields, FDNS-DS would still
not able to provide routine management reports, such as timeliness,
bottlenecks, and case outcomes.

After determining that the version of FDNS-DS available to field officers and
managers could not provide basic program management information on
workload, outcomes, timeliness, or case composition, we asked headquarters

       Review of the USCIS Benefit Fraud Referral Process

                            Page 19
staff whether they had tools available to obtain this information. Headquarters
personnel have a Microsoft Access user interface that has the capacity to work
with fields in FDNS-DS to structure queries, reports, and analysis. However,
headquarters staff had no immediate schedule for structuring queries or
reports. They anticipated providing the Microsoft Access interface to the
limited pool of program analysts who worked in the service centers, but had
not scheduled Microsoft Access training.

We believe that FDNS-DS should be restructured to mirror the fraud detection
and deterrence process it supports. However, the Microsoft Access interface
can provide a stopgap for some of the deficiencies of FDNS-DS. It should be
shared with each field service center, including service center management
and the FDNS fraud detection units and center fraud units, and with the
regional immigration officers and supervisory immigration officers who work
in the regions and districts.

Many field officers have, or can acquire, the skills necessary to use Microsoft
Access. If field managers can obtain workload and backlog reports from the
database that accurately reflect their office’s situation, we believe that the
incentive to maintain accurate information and eliminate manual reporting
increases. If service center, district, and FDNS managers agree on the
information that is required to track USCIS adjudicator
referrals to completion, FDNS-DS could be designed                 SURVEY:
to provide some case tracking and status reports.                 33 percent of
                                                              FDNS officers
                                                               agreed that,
Data Analysis Functions Need To Be Developed                 “FDNS-DS is well
                                                             designed for data
One of the goals of FDNS’ strategic plan is to analyze           analysis.”
patterns and trends in immigration benefit petitions.
FDNS currently has three valuable sources of information: USCIS
adjudicator referrals; analysis of the information collected in FDNS-DS; and
data mining in DHS case management systems. Each of these sources
requires additional development to be effective. For example, USCIS
adjudicators were referring less than one percent of their caseload to FDNS, a
statistic that suggests more information is needed about what adjudicators are
seeing and whether all are referring articulable fraud cases. Also, because the
Analytics function within FDNS-DS was delayed, and FDNS field officers did
not have the Microsoft Access interface to FDNS-DS, officers have limited
ability to analyze data in FDNS-DS. Finally, FDNS officers had routine
access to only one DHS immigration benefit application database for data
mining, and most FDNS data mining was ad hoc and focused on building
cases for ICE investigation.


       Review of the USCIS Benefit Fraud Referral Process

                            Page 20
FDNS needs to develop its capacity for data analysis and for identifying
fraudulent petitions before they reach adjudicators. Proactive data analysis
could reveal larger and more sophisticated fraud schemes, and identify
suspicious petitions earlier in the application process. Data analysis could
increase adjudicator efficiency, as adjudicators could focus their attention on
applications flagged in advance for possible fraud. Of equal importance, data
analysis could increase USCIS’ effectiveness by identifying petitions that
appear innocent individually but suspect when connected, such as companies
created primarily to sponsor foreign employees.

To develop its proactive data analysis capacity, FDNS needs a formal program
or procedures for conducting data analysis, specialized training, and
technological tools. FDNS has some tools capable of data analysis, including
Analytics, and these will be discussed in further detail below. However, most
FDNS officers who conduct data analysis have little formal training, and most
focus on developing potential criminal cases to refer to ICE for possible
prosecution. Most data analysis is limited to research that supports such
criminal cases, rather than a broader analysis of USCIS benefit applications to
identify trends and patterns.

FDNS’ limited data analysis program stems
                                                        ICE OFFICER:
from service center initiatives introduced             “[A]sylum IDENT
before FDNS was established. The service            [fingerprinting to verify
centers cooperated in developing a database             identity / multiple
that compiled information from their local         applications] needs to be
databases into a nationwide system,             merged with normal IDENT –
                                                  there are huge numbers of
CLAIMS3. CLAIMS 3 houses all benefit             fraudulent asylum claims in
petitions with the exception of naturalization,    the system, where we will
asylum, and refugee petitions. Another          never identify the perpetrator
database, the Citizen and Immigration           because all we have is a made-
Service Centralized Oracle Repository,           up name, a 5 year old photo,
                                                 and a bogus address in San
commonly referred to as CISCOR, generates                    Diego.”
productivity and management reports from
the data in CLAIMS3 and provides official
USCIS statistics. FDNS planned for the Analytics function to serve as its
interface with CISCOR, but implementation of searches using Analytics has
been delayed.

Officers in the Texas service center developed another system to analyze
applications for immigration benefits in CLAIMS3. The application, called
Service Center CLAIMS, or SCCLAIMS, is currently used in FDNS field
offices to search CLAIMS3 data for possible discrepancies and links to other
applications. Typically, searches are used to identify new applicants whose

       Review of the USCIS Benefit Fraud Referral Process

                            Page 21
                         names are on national security and public safety lookout lists, and who are
                         ineligible to apply for benefits because they have committed fraud in the past.
                         Other, more complicated, searches to support or develop investigations are
                         also done through the Texas fraud detection unit on an ad hoc basis.
                         Additionally, SCCLAIMS is being used to a limited extent to proactively
                         identify possible fraudulent applicants before they are adjudicated.

                         Comparing new applications to lookout lists, high fraud patterns, and other
                         indicators has the potential to have a measurable influence on fraud detection,
                         but the program lacks resources. One officer was managing these searches as
                         a collateral duty. Limitations in the available search tool and in server space
                         meant that it was difficult to construct more complex searches, such as sound-
                         alike searches for data fields or date ranges for a date of birth.

                         Another major limitation on fraud detection is that FDNS officers have data
                         mining capability only in the database that tracks immigration benefit
                         petitions. FDNS also needs to obtain information from other DHS databases,
                         such as those that track naturalization, asylum, and refugee applications;
                         aliens who travel to the United States legally; and aliens who have been
                         ordered removed. USCIS might also benefit from an FDNS focus on
                         expanding the collection and comparison of fingerprints to identify multiple
                         applications. Current fingerprinting requirements check an applicant’s
                         criminal history, but most applicants who commit immigration fraud can be
                         identified or flagged in CLAIMS3 only by name. 15 Access to all DHS
                         databases that track aliens from first encounter to citizenship or removal could
                         improve the quality of information available on immigration benefit fraud.
                         Better tools and dedicated staff could enable FDNS to develop this initiative.

                         FDNS Officers Need A More Efficient Data Entry Process

                         The most common issue raised during interviews with field officers, and in
                         our survey, was the labor-intensive structure of FDNS-DS data entry
                         requirements. FDNS-DS was intended to manage
                         and track adjudicator fraud referrals, and to                SURVEY:
                         identify petitions that might be related and might        In our survey, 38
                                                                               percent of FDNS officers
                         therefore indicate an underlying conspiracy.          agreed that, “FDNS-DS
                         However, FDNS-DS is not effective at either of        is well designed for case
                         those tasks. The method of linking individuals,            management.”
                         organizations, and forms to a case was unwieldy

15
  For a discussion of USCIS fingerprinting requirements, see “A Review of U.S. Citizenship and Immigration Services’
Alien Security Checks,” Department of Homeland Security Office of Inspector General, Office of Inspections and
Special Reviews, OIG-06-06, November 2005. http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_06-06_Nov05.pdf.

                                 Review of the USCIS Benefit Fraud Referral Process

                                                      Page 22
because of multiple data entry screens, and the database was designed for the
field officer to add information, but not to retrieve it.

During our field site visits, several FDNS officers walked us through the steps
they had to take to enter and retrieve case referral information. Several
structural weaknesses and design flaws combined to make this process labor
intensive. As shown in Figure 3: FDNS-DS’ Menus, there were 23 menus
from which FDNS officers might need to enter data, a mixture of data
elements such as people and organizations, and case stages or case types, such
as fraud referrals to ICE and benefit fraud assessments.

Figure 3: FDNS-DS’ Menus
Home              RFAs           Organizations        Activities                FVM         Subjects
  Forms             Cases               BFAs/CRs            Audit Trail             G392            More
       Calendar          Leads              NS Hits                Correspondence     RFI
          People            Addresses            NS Cases               Employees      Site Check




                                                                                                           First-order tabs


                                                                                                           First-order
                                                                                                           data fields

                                                                                                           Second-order tabs


                                                                                                           Second-order
                                                                                                           data fields

                                                                                                           Third-order tabs


                                                                                                           Third-order
                                                                                                           data fields




Each first-order tab has 8-36 data fields, and additional 3-15 second-order
tabs. Each second-order tab has 4-36 data fields. The second-order tab for
forms has a series of third-order tabs. Source: FDNS-DS database




           Review of the USCIS Benefit Fraud Referral Process

                                          Page 23
The case stages and case types might shift: for example, a referral from an
adjudicator might be entered in the menu called “Lead,” but the FDNS officer
would transfer the referral to the menu “Case” if the officer decided to refer
the case to ICE for possible investigation. To find the case later, the officer
might have to remember that it had been transferred between menus, or look
for the case with the exact spelling of the applicant’s last name.

FDNS officers are required to open each menu
that might be relevant to a new petition, first            FDNS OFFICER:
to check manually whether any element of the         “The    FDNS Data System is
case might be connected to another element of       absolutely   the most awkward
                                                       system to work in for our
any another petition, and then to enter data           line of work. We are not
elements on the new petition. Required data          sales people, which seems to
fields are not organized in a single data entry          be who this system was
screen, but require the user to navigate among              designed for. Our
the menus and their submenus (see Appendix              investigation  techniques
                                                       seem opposite to the way
F: FDNS-DS Data Fields). This process is                   FDNS DS is set up in
cumbersome: one field officer provided us              handling ‘leads’ for sales
with a manual developed locally to enable                  personnel. It is very
data entry for religious worker compliance            cumbersome     to enter all of
review cases. Initial data entry required up to           our data into  all of the
                                                      different levels and tabs of
144 separate steps to enter or verify 22 data            the system and without
elements. The field office responsible for                [A]nalytics, it's nearly
religious worker compliance review cases               impossible to try and see
estimated that it took about 30 minutes per          patterns within the data …”
case for data entry, a time commitment that
created backlogs even in initial data entry. Other field offices reported similar
data entry timelines, and few field offices had access to clerical support to
perform data entry.

Although these data search requirements might be of some value if they
identified fraud conspiracies, the design of the database makes matching
information difficult. Most databases designed to track people or
organizations have a sound-alike capability to match alternate spellings of
names, such as Li and Lee. Because FDNS-DS did not incorporate a sound-
alike feature, FDNS officers can easily miss connections to previously entered
cases. FDNS-DS not only lacks this ability, it is also case sensitive, so that all
names entered as Lee will follow all names entered as LEE.

FDNS-DS relies primarily on narrative fields such as last names and
organization names to identify records, rather than alien numbers, social
security numbers, tax identification numbers, or telephone numbers. When
we reviewed a developing conspiracy case at one fraud unit location, we

       Review of the USCIS Benefit Fraud Referral Process

                            Page 24
observed that another fraud unit in a different location was building the same
case under a variant of the organization’s name. An experienced FDNS-DS
user, who had selected specific cases to show us during a site visit, had to
search data fields under several different menus before locating the cases,
even though the officer knew they were in the database. A single screen for
initial data entry, more reliable record identification techniques, and better
matching capabilities built into the software could cut data entry time and
improve accuracy.

In addition, the design of FDNS-DS discourages FDNS officers from relying
on the database to track and manage their cases. Time-consuming data entry
is compounded by an automatic sign-out feature, which is activated without
warning after 20 minutes. Because the sign-out feature cannot detect when an
officer is entering narrative into FDNS-DS, an officer who is recording
comments directly into the database can be timed out and lose everything that
has been typed. Narrative fields have size restrictions and many officers
compensate by referencing attachments rather than entering narrative in the
relevant data field. Because officers cannot easily leave the program open
while they work on other aspects of a referral, officers are not using the
database to record case notes or workload. Data entry into fields that are not
mandatory but provide valuable information, such as alien number, tax
identification number, and country of origin, are not consistently filled. When
we reviewed information entered into FDNS-DS, most records were sketchy.
Only about two-thirds had information central to the petition, such as the
applicant’s alien number and country of origin, and only about one-third of
the records provide an estimate of hours spent on a given referral or case.

While there is a clear need for a lead tracking system and an information
management system for data mining and proactive data analysis, it is unclear
whether FDNS-DS contributes to researching individual leads. Field
personnel reported that other sources of information were much more
important for researching leads: that they researched the leads and only then
entered the data into FDNS-DS. While some officers suggested that as
FDNS-DS is populated, it may have more value as a research tool, there are
structural weaknesses that could limit its effectiveness. Headquarters officials
did not have projections as to the possible future value of FDNS-DS as a
research tool, and were unaware of the extent that data entry for the purposes
of populating a database for possible future leads was viewed as time
consuming.




       Review of the USCIS Benefit Fraud Referral Process

                            Page 25
     Recommendations
           We recommend that the USCIS Director:

           Recommendation #6: Develop a process for proactive data analysis across a
           wide range of immigration data to identify potential fraud patterns and leads,
           to both generate leads for FDNS and inform proper adjudications.

           Recommendation #7: Restructure FDNS-DS to improve case tracking and
           management reports. Case tracking should be streamlined, and FDNS
           program measures should be developed to be incorporated into the database
           structure, along with an interface to extract management reports at both the
           headquarters and field level.

           Recommendation #8: Review the value of FDNS-DS as a tool to research
           referrals as compared to alternate approaches currently used. Labor-intensive
           data entry should be reduced by eliminating redundant and marginal data
           fields, automating data entry, and streamlining the data entry interface.

Field Office Management and Organization
           If FDNS were to reconsider the 100% referral policy and restructure
           FDNS-DS, it could have a measurable effect on immigration benefit fraud.
           Limiting the number of cases pending with FDNS
           would lessen some of the current impediments            FDNS OFFICER:
           and backlogs FDNS field offices face. However,       “The   [Religious Worker
                                                                Compliance Review] site
           without substantial reprioritization of field office  visits are tremendously
           activities, other concerns would still need to be    burdensome on the field
           addressed. It is essential to DHS’ fraud detection    and yield little in terms
           and deterrence mission that FDNS headquarters            of supporting the
           focus on strengthening its communication with its             Districts.”
           field officers, and improve cooperation and
           coordination among field FDNS officers, service centers, and districts.

           To determine how FDNS monitored and managed field office programs, we
           interviewed FDNS’ field and headquarters partners in USCIS adjudications
           and ICE, and requested copies of all management reports FDNS field offices
           provided headquarters, and all site visit reports FDNS generated from field
           visits. FDNS staff in headquarters and in the field provided copies of
           statistical reports, but noted that these had been compiled based on Excel
           spreadsheets, as the FDNS-DS database could not produce the necessary
           statistics. FDNS staff in headquarters provided a list of field site visits, most
           of which had been conducted by FDNS regional immigration officers, and

                  Review of the USCIS Benefit Fraud Referral Process

                                       Page 26
some by headquarters staff. FDNS also provided some reports from field
visits, most of which had been written by regional immigration officers,
noting that FDNS officers did not provide written reports for most field site
visits.

Field Level Communication

Every FDNS field office we visited expressed the need for better
communication with the ICE benefit fraud units, and better communication or
a clearer sense of a common mission between FDNS and adjudications. Most
FDNS field officers we interviewed, and many who responded to our survey,
raised concerns about headquarters’ understanding of their workload and
working conditions.
                                                               ICE OFFICERS:
                                                              “Referrals are usually
Most ICE benefit fraud units and USCIS
                                                            good but often do not meet
adjudications managers we interviewed                       the US Attorney's Office's
expressed some frustration with their inability to               requirements for
communicate with FDNS, or with the quality                   acceptance for criminal
and timeliness of FDNS work. Although FDNS                         prosecution.”
                                                                       zzz
headquarters was aware of some of these                     “A lot of referrals contain
concerns, we were not able to verify that it had             [FDNS officer] personal
reprioritized field activities or stepped up field          opinions and assumptions
oversight to address them.                                    and usually lack some
                                                              necessary information,
                                                             such as country of birth,
We observed that in three of the five locations               adequate information
we visited, communication and cooperation                       related to criminal
between FDNS management and service center                     CONVICTIONS vs.
management was poor. Most of the FDNS field                  arrests. Good addresses
officers we interviewed said that they had a                for subjects are also often
                                                                     left out.”
“black hole” reputation with the local service
center. One service center had raised its
concerns about prioritization, timeliness, and quality directly with FDNS
headquarters management who visited in January 2006, but the issues had not
been resolved when we conducted our site visit in February 2007. In each
service center, the most common complaint was that fraud cases referred to
FDNS were not consistently resolved. The service centers and the FDNS staff
maintained separate, and irreconcilable, statistics on pending cases. Because
FDNS-DS does not provide referral tracking spreadsheets or other routine
case management reports, the only information FDNS managers had available
was what they maintained manually. Most service center officers and
managers had minimal information about the competing demands on, and
heavy workloads of, FDNS field staff.


       Review of the USCIS Benefit Fraud Referral Process

                            Page 27
Relationships between the districts and their FDNS officers in the field offices
we visited were generally better than relations at the service centers, but our
site visits covered only 4 of 33 districts and none of the asylum offices. We
reviewed available site visit reports on districts, which indicated that regional
immigration officers monitored and mediated quality and communication
issues with the districts. Because district directors provided administrative
supervision for their FDNS officers, they had a better understanding of the
competing demands on FDNS officers than the
service centers had.                                        FDNS OFFICER:
                                                            “Backlogs of FDNS cases
However, at the headquarters as well as field                 in District Offices are
                                                             horrendous, yet FDNS-
levels, senior district managers said that district           HQ continues to task
offices were not experiencing as much support                  field [FDNS officers]
from FDNS operations as they had expected.                     with more and more
Most FDNS officers in district offices described                      duties.”
their relationships at the districts as a balancing
act, as they tried to assist field adjudicators while addressing headquarters
priorities. Senior management in headquarters field operations expressed
interest in assisting FDNS in providing better support for the districts, and
said that they were interested in rotating adjudicators through the FDNS, to
assist with the caseload, to train FDNS officers to obtain more relevant
information in their research and site visits, and to integrate FDNS within the
districts.

Only one FDNS field office had strained relations with its ICE benefit fraud
unit at the time we visited. However, as illustrated in Figure 4:
Communication Between FDNS and ICE, communication between FDNS
field offices and ICE needs improvement. More than half of the FDNS
officers who responded to our survey did not consider that ICE provided
FDNS with sufficient guidance on case referral criteria, timely information on
the status of referred cases, or clear reasons for declining cases. One service
center was clearly marking single-scope fraud cases and said that ICE did
decline those cases promptly, but other service centers said they did not hear
back on single-scope cases. Many of the FDNS officers we interviewed
expressed disappointment that ICE was not accepting cases for investigation
that they considered important fraud conspiracy cases, and more than half of
the FDNS officers who responded to our survey did not consider that the ICE
benefit fraud units accurately predicted which cases ICE offices were likely to
accept for investigation.

In addition, as illustrated in Figure 4: Communication Between FDNS and
ICE, more than half of the ICE officers who responded to our survey raised
concerns about the quality and consistency of FDNS fraud referrals. In

       Review of the USCIS Benefit Fraud Referral Process

                            Page 28
interviews, ICE officers provided written or oral examples of referrals from
FDNS that they said should never have been referred. These included
referrals for which the fraud was not articulated, the alleged fraud happened
years earlier, or the fraud involved an imposter whose identity was unknown.
ICE benefit fraud unit officers also cited examples of cases for which the
FDNS officers did not evaluate the quality of their evidence, such as the
accuracy of information obtained from credit reports, before forwarding it. At
the same time, ICE benefit fraud unit officers readily identified FDNS officers
who consistently referred high quality cases that had been accepted for
investigation. Our informal review of the Requests To ICE that we received
from the benefit fraud units and those recorded in the database confirmed that
the quality of referrals varied considerably.

Reconsidering the 100% referral policy ought to reduce the volume of
referrals between adjudicators and FDNS, and between FDNS and ICE, and
some of the resulting tension over delayed cases. However, concerns raised
about the quality and relevance of FDNS responses still ought to be addressed
through better communication with service centers, districts, and ICE benefit
fraud units. FDNS’ role within USCIS, and its responsibilities in providing
direct support for adjudicators, also needs to be defined and factored into its
priorities.

Figure 4: Communication Between FDNS and ICE
 Survey Statement
 FDNS                                                       Agree
 177 responses of 207 surveys (86% response rate)
 ICE provides FDNS with clear guidance on what              16%
 should be included in the USCIS Referrals To ICE.
 The ICE benefit fraud unit provides prompt decisions       20%
 (within 60 days) on whether a case is declined or
 accepted.
 The ICE benefit fraud unit accurately predicts which       20%
 cases the SACs are likely to accept.
 ICE provides FDNS with clear reasons when                  15%
 declining cases.
 ICE                                                        Agree
 18 responses of 29 surveys (62% response rate)
 Most FDNS referrals provide accurate, current,             22%
 actionable information.
 Most of the strong fraud referrals come from a few         67%
 FDNS officers.




       Review of the USCIS Benefit Fraud Referral Process

                            Page 29
Field Working Conditions

A cornerstone of FDNS’ strategy is its ability to send its immigration officers
to the field to conduct site visits through which an officer might determine if
petition is fraudulent. This determination is made by driving past a
petitioner’s claimed address, visiting a petitioner’s claimed place of
employment, verifying that a church exists, checking university attendance, or
visiting a residence to determine whether both spouses live at the address
entered on their application.

In our survey, 33% of FDNS officers agreed with the statement, “FDNS
[officers] are put in unsafe situations by conducting field inquiries,” while
18% agreed with the statement, “FDNS [immigration officers] face some
pressure to conduct field inquiries where there are safety concerns.” Many of
the FDNS officers we interviewed at district offices said they obtained an
escort from ICE when they conducted
site visits, particularly when they                  FDNS OFFICERS:
visited residences or crime-ridden              “Since   we do criminal checks
                                                 on our addresses and people
neighborhoods. In the larger field
                                                 for field site visits, and since
offices, FDNS officers sometimes                the individual [FDNS officer]
traveled in pairs. A regional                      must additionally make a
immigration officer who supervised            visual judgment call and not go
many small districts where there was           into an unsafe area, I strongly
                                                  disagree that it is unsafe.”
only one FDNS officer per district                             zzz
expressed serious concern about officer           “I even received a message
safety. One survey respondent wrote              where a person from FDNS
that while being interviewed during a            HQ inserted a Google image
                                                indicating it was OK to go to
remote site visit, a petitioner said that           an area because ‘Aerial
he “could bury her body anywhere up               reconnaissance of the area,
there and no one would find her.”               reveals numerous avenues of
However, we did not hear of any                approach, two lane roads and
specific incidents in which FDNS                 relatively debris free areas.’
                                                  When did USCIS obtain an
officers were physically threatened or             airplane to conduct aerial
attacked.                                       reconnaissance? Who knows
                                                    how many years have passed
There are some measures in place to           since this picture was taken?”
provide for officer safety, including
deconfliction with ICE and checks on the neighborhood and other tenants.
However, several of the FDNS officers who completed our survey wrote in
the narrative section that they did not consider their training on site visits to be
adequate, and requested, at a minimum, that they be trained by police or other
law enforcement officers on risk assessment and self defense.


       Review of the USCIS Benefit Fraud Referral Process

                            Page 30
Current site visit training is limited to a
31-slide PowerPoint presentation, with only                   SURVEY:
                                                      33 percent of ICE officers
13 slides addressing safety (see Appendix              agreed that, “FDNS field
E: Sample Slices from Site Visit Training).        inquiries and site visits are well
ICE headquarters managers said that officer             coordinated with ICE.”
                                                                 zzz
safety is a legitimate concern, and that as
                                                      83 percent of ICE officers
DHS’ investigative agency, they did                    agreed that, “FDNS field
consider providing escorts in potentially           inquiries and site visits could
dangerous situations within their mandate.                be mistaken for law
While procedures allowed FDNS field                  enforcement  investigations.”
officers to forgo site visits if there were
safety concerns, neither the site visit checklists nor the FDNS-DS database is
designed to record in how many instances FDNS officers obtained law
enforcement escort or traveled in pairs, and therefore did not characterize the
site visit as dangerous. FDNS needs to document with more specificity how
site visits are planned and conducted, and their effect on ICE resources.

Quality Assurance and Training

In addition, some officers raised quality and training issues. FDNS officers
said that it was difficult to arrange training for adjudicators, and that
adjudicators were discouraged from referring cases. In some service centers,
adjudicators and management said that the information from FDNS did not
provide facts that were material to adjudicative standards. They said that
information provided by many FDNS officers on fraud referrals was not
actionable, as it was overly general or did not link fraud to specific grounds
for denial. We reviewed Statements of Finding prepared by FDNS officers
for adjudicators in the service centers, and in the FDNS-DS database; the
quality of information varied widely by FDNS officers.

Because not all FDNS officers had formal training in immigration law and
some did not understand what met the adjudicative threshold for a denial on a
particular petition, some adjudicators did not find the FDNS Statements of
Findings to be useful. Some FDNS officers suggested that adjudicators take
actions that were specifically proscribed by policy and procedures. This
problem may be alleviated with the introduction of the center fraud units,
whose staff was selected from local journeyman adjudicators. However,
completeness was also an issue. Some FDNS officers provided a detailed list
of all the systems they checked and calls or site visits they made in
researching the referral, while others provided little or no information,
recommending only that the officer adjudicate the application based on the
merits of the case.


       Review of the USCIS Benefit Fraud Referral Process

                            Page 31
          Assessing the consequences of unresolved referrals was difficult. When we
          discussed pending adjudicator referrals with senior service center managers at
          headquarters, they said that some referral delays had been addressed, but
          others had not. They were aware that the religious worker compliance review
          had consumed FDNS resources, but said that it was difficult to get a sense of
          the extent of delays and backlogs from their position at headquarters.

     Recommendations
          We recommend that the USCIS Director and the ICE Assistant Secretary:

          Recommendation #9: Develop shared management reports on the status of
          referred petitions, and procedures for raising quality and timeliness concerns.

          Recommendation #10: Develop standards for site visit reports that document
          USCIS and ICE workload, safety, and law enforcement coordination
          measures.

Management Comments and OIG Analysis
          We evaluated the comments submitted by USCIS and ICE and have made
          changes to the report where appropriate. Below is a summary of the written
          responses from USCIS and ICE concerning the report’s recommendations and
          our analysis of the response. A summary of the USCIS and ICE responses is
          provided below.

          Recommendation #1: USCIS and ICE should replace the USCIS and ICE
          100% Referral Memorandum of Agreement with a policy that limits and
          prioritizes USCIS adjudicator referrals to FDNS, and FDNS referrals to ICE.

          USCIS Response: USCIS agreed with this recommendation and said that it is
          actively engaged with ICE to modify the existing Memorandum of
          Agreement. USCIS said that three editorial exchanges with ICE have already
          taken place.

          ICE Response: ICE said that our discussion of the Memorandum of
          Agreement inaccurately reflected the content and context of the document,
          and said that the Memorandum of Agreement establishes an operational
          process, but does not itself set a 100% referral requirement. ICE suggested
          that it would be more appropriate to address the 100% referral issue by
          amending and republishing the Memorandum of Agreement, and said that ICE



                 Review of the USCIS Benefit Fraud Referral Process

                                      Page 32
and USCIS have already initiated a review of the agreement with the aim of
crafting revised language that will establish priority levels of referrals from
FDNS to ICE.

OIG Evaluation: We consider these actions responsive to the intent of the
recommendation. This recommendation is resolved, but remains open
pending receipt of a revised policy document.

Recommendation #2: USCIS should establish performance measures for
fraud detection in the USCIS immigration benefit caseload.

USCIS Response: USCIS concurred with this recommendation, and
indicated that components within USCIS are collaborating to ensure
adjudicator performance work plans contain appropriate measures. USCIS
intends to incorporate measurable FDNS duties in the national performance
work plan’s quality assurance job element during FY 2008.

OIG Evaluation: We consider these actions responsive to the intent of the
recommendation. This recommendation is resolved, but remains open
pending receipt of revised USCIS performance measures.

Recommendation #3: USCIS should require the National Security and
Records Verification Directorate to develop a quarterly report on fraud goals
and accomplishments for the USCIS Director.

USCIS Response: USCIS agreed that more reports need to be developed on
FDNS’ progress in detecting and combating fraud. USCIS is working with its
management counterparts to identify sound metrics. USCIS said that this
includes developing and measuring objectives containing such data as the
amount and type of leads identified, cases referred, types of fraud and
background check hits, and processing times.

OIG Evaluation: We consider these actions responsive to the intent of the
recommendation. This recommendation is resolved, but remains open
pending receipt of the first quarterly report provided to the USCIS Director.

Recommendation #4: USCIS should require adjudicators to identify
petitions with articulable fraud in an electronic system accessible to FDNS, to
begin establishing fraud patterns and trends.

USCIS Response: USCIS responded that adjudicators are required to refer
petitions and applications with potential articulable fraud to FDNS for review
and resolution. FDNS then has this data available for establishing fraud

       Review of the USCIS Benefit Fraud Referral Process

                            Page 33
patterns and trends to be shared with adjudicators. USCIS said that this data
would eventually be used to include potential fraud indicators as a screen
during the up-front processing of applications. USCIS said that FDNS is
conducting a review of its software and developing a Concept of Operations
that may result in more adjudicator access to FDNS–DS or an alternative
electronic system.

OIG Evaluation: USCIS has suggested actions that are partially responsive
to the intent of the recommendation. The recommendation is resolved and
remains open pending receipt of information on how FDNS will automate the
process. At present, adjudicators process about 6 million cases a year, and
make fewer than 20,000 referrals to FDNS. Data that adjudicators enter into
USCIS’ primary databases must currently be manually reentered into
FDNS–DS by FDNS officers. FDNS officers cannot realistically manage
manual data entry of the larger caseload that is likely to result from including
fraud identification in USCIS performance measures. Ideally the process
should be automated, but if it cannot be automated in the short term, data
entry by adjudicators is a realistic mechanism both for ensuring that the
information is captured for analysis of patterns and trends, and that
adjudicators receive credit for identifying articulable fraud.

Recommendation #5: Establish a quarterly reporting requirement from
USCIS Adjudications to the USCIS Director on adjudicator participation in
identifying articulable fraud.

USCIS Response: USCIS responded that the National Security and Records
Verification Directorate, Domestic Operations Directorate, and the Refugee,
Asylum, and International Operations Directorate would collaborate in an
effort to identify a means of providing information on adjudicator
participation in identifying articulable fraud. USCIS said that its current
processes do not have the capability to track which adjudicators are
submitting referrals, but that they would explore such in the future. USCIS
said that this would be a delicate balance since not every adjudication officer
in either a USCIS service center, field, or overseas office experiences or
identifies fraud at consistent rates or in a consistent manner.

OIG Evaluation: We consider these actions responsive to the intent of the
recommendation. The recommendation is resolved and remains open pending
receipt of information on how USCIS will develop quarterly reporting
requirements from USCIS Adjudications to the USCIS Director. OIG
recognizes that there are legitimate reasons fraud identification rates vary. By
tracking adjudicator participation, USCIS will have the information necessary


       Review of the USCIS Benefit Fraud Referral Process

                            Page 34
to distinguish variations based on caseload from those based on adjudicator
performance.

Recommendation #6: USCIS should develop a process for proactive data
analysis across a wide range of immigration data to identify potential fraud
patterns and leads, to both generate leads for FDNS and inform proper
adjudications.

Recommendation #7: USCIS should restructure FDNS–DS to improve case
tracking and management reports. Case tracking should be streamlined, and
FDNS program measures should be developed to be incorporated into the
database structure, along with an interface to extract management reports at
both the headquarters and field level.

Recommendation #8: USCIS should review the value of FDNS–DS as a tool
to research referrals as compared to alternate approaches currently used.
Labor-intensive data entry should be reduced by eliminating redundant and
marginal data fields, automating data entry, and streamlining the data entry
interface.

Recommendation #9: USCIS and ICE should develop shared management
reports on the status of referred petitions, and procedures for raising quality
and timeliness concerns.

USCIS Response on Recommendations #6, #7, #8 and #9: USCIS agreed
with these recommendations and will take three initiatives to address our
concerns about FDNS–DS. First, USCIS said that the DHS Office of
Information Technology would conduct a comprehensive study that would
include a baseline review of FDNS–DS, a validation of requirements with
critical input from USCIS and non-USCIS users, and the development of an
engineering strategy. USCIS said that this study would be complete by the
third quarter of FY 2008. Second, USCIS said that the National Security and
Records Verification Directorate, in conjunction with the Office of
Information Technology, would develop and implement a new governance
plan and support structure which would be capable of delivering an FDNS–
DS that would meet the long term needs of the FDNS operation. The plan
would be completed during the first quarter of FY 2008. Third, FDNS would
develop a dedicated training team to provide users with training and
guidelines. USCIS said that while these steps were being taken, it would
continue to provide support to maintain FDNS–DS, but that no new business
requirements would be provided to the Office of Information Technology until
completion of the study and plan.


       Review of the USCIS Benefit Fraud Referral Process

                            Page 35
ICE Response on Recommendation #9: ICE said it agreed that there should
be a system or process for tracking information from which both agencies can
retrieve needed data for their own reports. ICE said that the focus of the
shared status information should be on the status of cases, rather than
petitions, as numerous petitions could be associated with a single case
investigation. ICE said that coordinated efforts have been initiated with
USCIS to transition case tracking and reporting through FDNS–DS, and that a
separate tab within FDNS–DS is in development for ICE specific case
tracking. ICE said that its requirements included identifying, facilitating and
tracking of FDNS referrals, referral quality, and requirements. ICE said that
USCIS is developing the technical elements of the system, and understood
that it might take up to a year for the system update to be completed and made
available for use.

OIG Evaluation: We consider these actions responsive to the intent of
recommendations 6, 7, 8, and 9. These recommendations are resolved and
remain open pending receipt of the FY 2008 study, the FY 2008 governance
plan, a copy of guidance and training materials provided to officers who use
FDNS–DS, and confirmation that ICE system requirements will be
incorporated in the database.

Recommendation #10: Develop standards for site visit reports that document
USCIS and ICE workload, safety, and law enforcement coordination
measures.

USCIS Response: USCIS agreed with this recommendation and listed site
visit checklists and guidance that FDNS had developed, including a
worksheet, supervisory approval, data entry into FDNS–DS, the option of
team visits and requests for assistance from ICE or other law enforcement
agencies.

ICE Response: ICE said that developing site visit report standards is within
the scope and authority of USCIS as an internal USCIS issue. ICE said that it
does not regularly conduct site visits as USCIS does in the context of
adjudicating administrative petitions and applications. ICE said that it would
continue to provide support to FDNS personnel performing site visits, and that
such support would be based on security concerns and ICE resources. ICE
believes that FDNS–DS or another USCIS data system should capture the
required information, as USCIS would be the primary source of data.

OIG Evaluation: USCIS and ICE concurred and suggested actions that are
partially responsive to the intent of the recommendation. The
recommendation is resolved and remains open pending receipt of a monthly or

       Review of the USCIS Benefit Fraud Referral Process

                            Page 36
quarterly report providing the requested information. OIG notes that various
procedures, checklists and data fields already exist for FDNS officers to
document site visits. However, the tools that existed at the time of our review
were not consistently used. Nor were they designed to provide aggregate data
that would allow USCIS and ICE managers to review, for example, how many
hours ICE officers spent accompanying FDNS officers on site visits. We
agree with ICE comments that a USCIS data system is the most appropriate
source of such reports, and that USCIS would be the primary source of data,
as this recommendation does not encompass ICE investigations. However,
ICE can contribute its law enforcement expertise on safety and deconfliction
standards, and should have reliable information on ICE resources provided to
USCIS site visits.




       Review of the USCIS Benefit Fraud Referral Process

                            Page 37
Appendix A
Purpose, Scope, and Methodology

Appendix A:   Purpose, Scope, and Methodology
                       We reviewed DHS’ immigration benefit fraud strategies, workload, and
                       outcomes to determine what law enforcement and administrative resources
                       were used for benefit fraud cases, and to assess whether resource allocation
                       for this mission matched risks and complemented ICE’s enforcement strategy.
                       Specifically, we evaluated DHS’ policy of requiring adjudicators to refer all
                       articulable fraud cases to FDNS, and for FDNS to refer these cases to ICE.
                       We also reviewed how FDNS develops benefit fraud leads, and how it
                       prioritizes and investigates leads that ICE has declined.

                       The review included more than 125 interviews with headquarters and field
                       staff from USCIS domestic operations, FDNS, and ICE benefit fraud units and
                       task forces. We also interviewed State Department managers in headquarters
                       and in the field, as well as Government Accountability Office and DHS Office
                       of Statistics subject matter experts. We conducted site visits to service
                       centers; regional and district offices; ICE benefit fraud units; and benefit fraud
                       task forces. Our site visits included California, Colorado, Massachusetts,
                       Missouri, Nebraska, Texas, and Vermont. We also visited a State Department
                       visa processing facilities in New Hampshire.

                       We conducted extensive interviews with FDNS officers at the regional and
                       district levels who were responsible for referring cases to ICE for possible
                       investigation. We also met with staff at the managerial and working levels
                       from the regional service centers, and regional and district adjudication offices
                       to discuss the fraud referral process and to understand the effect FDNS
                       activities have on adjudications. Our review included all services centers and
                       all ICE benefit fraud units; therefore, our comments and conclusions about
                       these sites are based on the universe of available information. However, our
                       site visits covered only four USCIS districts and four ICE benefit fraud task
                       forces, and may not be representative of conditions throughout these two
                       programs.

                       We did not review any FDNS programs at asylum offices, both because the
                       Government Accountability Office was conducting a review of that program,
                       and because the complexity and relatively small size of the caseload
                       distinguished it from other USCIS adjudications. We included FDNS officers
                       at asylum offices in our survey of FDNS officers, and ICE officers provided
                       us feedback on asylum referrals.

                       At each site visit, we requested from FDNS officers, adjudicators, and ICE
                       officers copies of high quality and poor quality FDNS Referrals to ICE and
                       Statements of Findings. We also selected more than 100 of these
                       Referrals to ICE and Statements of Finding from the database for analysis.
                       Because there are no clear quality guidelines on the memoranda, we limited
                       our observations to noting that the quality varied widely by FDNS officer.

                                Review of the USCIS Benefit Fraud Referral Process

                                                     Page 38
Appendix A
Purpose, Scope, and Methodology


                   In addition to our site visits, we conducted a survey of FDNS officers, and a
                   separate survey of ICE officers in the benefit fraud units and benefit fraud task
                   forces. The survey was structured as an opinion survey, inviting officers to
                   agree or disagree with statements. We based the survey on issues raised
                   during site visits. We sent the FDNS survey to 207 FDNS officers and
                   received a response from 177 officers, an 86% response rate. The small size
                   of the ICE benefit fraud units and the number of benefit fraud task forces that
                   were already operational at the time of our review limited the size of our ICE
                   survey.

                   We sent the ICE survey to 29 ICE benefit fraud unit and benefit fraud task
                   force officers, and received a response from 18 officers, a 62% response rate.
                   For the FDNS survey, 107 officers provided narrative responses, and 8
                   officers provided narrative responses to the ICE survey. We confirmed that
                   there were no noticeable differences between the responses of headquarters
                   and field FDNS officers, nor between FDNS officers in service centers and
                   districts, with the exception of the number of questions marked as not
                   applicable.

                   To review the FDNS-DS database, the team interviewed all of the
                   headquarters and field staff who had been involved in development and
                   implementation of the database. We were acquainted with the database’s
                   structure and capabilities through demonstrations at headquarters and several
                   field offices, and therefore were able to assess field officers’ experience using
                   the system. We also met with subject matter experts on FDNS-DS,
                   SCCLAIMS, and other DHS mainframe databases during one of our site
                   visits. Team members spent approximately four weeks reviewing the
                   structure and capabilities of the FDNS-DS database, reviewing specifications,
                   and testing the database with headquarters staff.

                   Fieldwork began in December 2006 and was completed in May 2007. This
                   review was conducted under the authority of the Inspector General Act of
                   1978, as amended, and according to the Quality Standards for Inspections,
                   issued by the President’s Council of Integrity and Efficiency.

                   We would like to offer our appreciation for the cooperation and courtesies
                   extended by USCIS and ICE to our staff during this review.




                          Review of the USCIS Benefit Fraud Referral Process

                                               Page 39
Appendix B
USCIS FDNS Organizational Chart


Appendix B:    USCIS FDNS Organizational Chart
                                             United States Citizenship and Immigration Services
                                              United States Citizenship  and Immigration Services
                                                                   Director
                                                                    Director


                    Refugee, Asylum,                          Domestic Operations                           National Security
              and International Operations                                                               and Records Verification
                   Associate Director                              Associate Director                       Associate Director



                                                     Field                           Service Center
                     Asylum Office                                                                      Office of Fraud Detection
                                                   Operations                         Operations
                       Director                                                                        and National Security Chief
                                                     Chief                               Chief
                                                                                                                                FDNS
                                                                                                                                Officer

                                                                                        5 Service
                                                       3 Regions
                                                                                         Centers
                                          FDNS
                                         Regional
                                          Officer



                         8 Asylum                   33 District                        5 Center                 5 Fraud
                          Offices                    Offices                          Fraud Units            Detection Units
               FDNS                          FDNS                          FDNS                        FDNS
               Officer                       Officer                       Officer                     Officer




               FDNS             FDNS HQ Substantive and                    FDNS            FDNS HQ Administrative and
               Officer       Field Administrative Supervision              Officer           Substantive Supervision




                                     Review of the USCIS Benefit Fraud Referral Process

                                                                        Page 40
Appendix C
Fraud Referral Sheet


Appendix C:   Fraud Referral Sheet




                             Review of the USCIS Benefit Fraud Referral Process

                                                  Page 41
Appendix C
Fraud Referral Sheet




                       Review of the USCIS Benefit Fraud Referral Process

                                            Page 42
Appendix C
Fraud Referral Sheet




                       Review of the USCIS Benefit Fraud Referral Process

                                            Page 43
Appendix C
Fraud Referral Sheet




                       Review of the USCIS Benefit Fraud Referral Process

                                            Page 44
Appendix D
Request To ICE


Appendix D:   Request To ICE




                               Review of the USCIS Benefit Fraud Referral Process

                                                    Page 45
Appendix E
Sample Slides From Site Visit Training



Appendix E:   Sample Slides From Site Visit Training




                              Review of the USCIS Benefit Fraud Referral Process

                                                   Page 46
Appendix F
FDNS-DS Data Fields


Appendix F:    FDNS-DS Data Fields




                                              Forms/Attachments-        BFA/CRs-
                                              8 data fields             32 data fields

                               Forms/Attorney-                                                 Contacts-
                               36 data fields                                                  37 data fields

                                                     Actions-           Attachments-
                                                     17 data fields     8 data fields
                 Forms/                                                                                       Organizations-
                 Beneficiaries-                                                                               11 data fields
                 36 data fields
                                    Forms-                                                  FVM-
                                    17 data fields                                          16 data fields
                                                                                                                    Related Cases-
              Forms/Co-                                             Case-
              sponsors-                                                                                             27 data fields
                                                        18 data fields on main screen
              36 data fields                             37 data fields on list screen
                                   Site Checks-                                              G392-
                                   23 data fields                                            18 data fields
                                                                                                                Related Leads-
               Forms/Petitioner                                                                                 34 data fields
                Individual-
                 36 data fields                       RFI-                  Notes-
                                                      26 data fields        4 data fields

                                Forms/Petitioner                                                   RFAs-
                                                                                                   32 data fields
                                Organization-
                                 19 data fields
                                                    Forms/Substituted      Subjects-
                                                    Aliens-                36 data fields
                                                    36 data fields




                         Cases in FDNS-DS are arranged with multiple tabs and subtabs. For the first-
                         order tab of cases, there are 15 second-order tabs and 7 third-order tabs.

                                          37 data fields represent case status
                                          119 data fields represent case specifics
                                          408 data fields represent related entities

                         Not all of the available data fields have data entered, simply because it is not
                         applicable to each case; however, many data fields may have multiple entries
                         for a single case. A simple single-instance marriage fraud case typically has
                         over 100 data fields entered.


                                     Review of the USCIS Benefit Fraud Referral Process

                                                                 Page 47
Appendix G
Additional Survey Responses


Appendix G:   Additional Survey Responses

                                                                          FDNS                ICE
                                                                      177 responses       18 responses
                                                                      of 207 surveys      of 29 surveys
                                                                     86% response rate   62% response rate
                     Survey Statement                                      Agree              Agree
                     DHS' overall strategy for identifying and             60%                33%
                     addressing immigration benefit fraud is
                     effective.
                     USCIS adjudicators are encouraged to                   50%                17%
                     identify and refer fraud cases.
                     FDNS ought to refer 100% of articulable                39%                17%
                     fraud cases to ICE.
                     The BFU accurately predicts which cases                20%                39%
                     the [ICE Special Agents in Charge] and
                     Benefit Fraud Task Forces are likely to
                     accept.
                     The SACs provide prompt feedback to                     7%                22%
                     the [ICE Benefit Fraud Units] on
                     whether they will accept a case.
                     ICE Officers are available to assist                   29%                39%
                     FDNS [Immigration Officers] in
                     conducting field inquiries.
                     The ICE [Benefit Fraud Units] provides                 20%                56%
                     prompt decisions (within 60 days) to
                     FDNS on whether a case is declined or
                     accepted.
                     One or more FDNS [Immigration                           6%                0%
                     Officers] have brought weapons to field
                     inquiries or site visits for safety.




                             Review of the USCIS Benefit Fraud Referral Process

                                                  Page 48
Appendix H
Memorandum of Agreement


Appendix H:    Memorandum of Agreement
                 MEMORANDUM OF AGREEMENT
                     BETWEEN USCIS AND ICE
      ON THE INVESTIGATION OF IMMIGRATION BENEFIT FRAUD

1. PARTIES. The parties to this Memorandum of Agreement (MOA) are U.S. Immigration and
Customs Enforcement (ICE) and U.S. Citizenship and Immigration Services (USCIS), two
components of the Department of Homeland Security (DHS).

2. AUTHORITY. In section 2(I) of DHS Delegation Number 0150.1, Delegation to the Bureau of
Citizenship and Immigration Services, and in section 2(I) of DHS Delegation Number 7030.2,
Delegation of Authority to the Assistant Secretary for the Bureau of Immigration and Customs
Enforcement, USCIS and ICE received concurrent authority to investigate fraud involving
immigration benefits available under the Immigration and Nationality Act (INA). In their respective
delegations, USCIS and ICE were further directed by the Secretary of Homeland Security to
coordinate the concurrent responsibilities provided under these Delegations. This MOA is being
undertaken to outline the coordination between USCIS and ICE, as authorized by these Delegations.

3. PURPOSE. The purpose of this MOA is to set forth terms by which ICE and USCIS will work
together to combat immigration fraud and identify individuals who pose a threat to national security
and/or public safety. This MOA is limited in scope to the specific responsibilities described herein.

4. RESPONSIBILITIES. The parties' responsibilities under this MOA are as follows:

USCIS

a. Each USCIS office will designate a point of contact to ensure cooperation, communication, and
coordination with its designated ICE counterparts.

b. The primary USCIS component responsible for anti-fraud issues is the Office of Fraud Detection
and National Security (FDNS).

c.




                             Review of the USCIS Benefit Fraud Referral Process

                                                  Page 49
Appendix H
Memorandum of Agreement




Any disclosures will be in accordance with DHS policy and Federal law.

d. USCIS is primarily responsible for detecting benefit fraud associated




e. USCIS will refer articulated suspicions of fraud to ICE, via the appropriate ICE Office of
Investigations (OI) Benefit Fraud Unit (BFU) or any other entity designated by ICE. USCIS' primary
vehicle in referring such cases is the Fraud Detection Unit (FDU) located at each of its production
centers.

f. If ICE declines or rejects a USCIS Request for Investigation, any further action taken by USCIS is
considered administrative in nature. USCIS may conduct further inquiry when fraud is suspected, the
primary objective of which is to pursue the information necessary to render a proper adjudication.
USCIS will verify the information, including attestations contained in applications, petitions, and
supporting documentation. If the administrative inquiry discloses criminal activity beyond the
suspicions articulated to ICE, USCIS will consult ICE to determine whether ICE will open a
criminal investigation.

g.




h. USCIS will provide access to USCIS databases
                                           and pertinent training to ICE personnel at mutually
agreed upon times and locations at no expense to USCIS.

i. Consistent with relevant statutes, regulations, DHS policy, and USCIS resources, USCIS will
commit personnel to its FDU program sufficient to support this MOA.

ICE

a. ICE shall be responsible for conducting criminal investigation of USCIS immigration benefit
fraud.

                             Review of the USCIS Benefit Fraud Referral Process

                                                  Page 50
Appendix H
Memorandum of Agreement



b. Each ICE OI Special Agent in Charge (SAC) will designate a Group Supervisor (GS) to act as the
primary point of contact and responsible party for ensuring cooperation, communication, and
coordination with his or her USCIS counterparts at the field level.

c.




d.




e. When a case is referred from USCIS, ICE will decide whether to accept the case for investigation.
If ICE decides to accept the case, it will open the case internally and assign it to an OI SAC office. If
ICE decides to decline the case, it will return the case to USCIS.



f. Once ICE has accepted a case, it will investigate USCIS' articulated suspicions of immigration
fraud.




g. Upon acceptance of a case by an OI SAC office (case opened and assigned), and after consultation
with the relevant prosecuting authority, the ICE OI case agent will provide feedback to the referring
BFU regarding case status.


h.




i. ICE OI will provide USCIS with specific reasons when it rejects a USCIS Request for
Investigation.

                              Review of the USCIS Benefit Fraud Referral Process

                                                   Page 51
Appendix H
Memorandum of Agreement



j. Consistent with relevant statutes, regulations, DHS policy, and ICE resources, ICE will commit
personnel to its BFU program sufficient to support this MOA.


5. POINTS OF CONTACT. The ICE POCs will be the OI IBFU,
Safety Unit Chiefs, BFU Section Chiefs, and the designated GSs. The USCIS POCs will be the
FDNS, FDU Section Chiefs, and FDNS Immigration Officers.


6. DISCLOSURE AND USE OF INFORMATION

a. Any information disclosed under this MOA will be done pursuant to all relevant laws, regulations,
and policies including, but not limited to, the Privacy Act, the Freedom of Information Act, and legal
provisions limiting disclosure of information relating to immigration benefit requests for asylum and
other forms of protection. Additionally, other than as provided by this MOA, information indicating
that an application or individual is under investigation shall not be disclosed beyond the parties of
the MOA without first obtaining permission from the other party.

b. ICE and USCIS may receive requests for information made under a court order, the Freedom of
Information Act, the Privacy Act, or Congressional inquiry, or requests from the media or other
sources. ICE and USCIS understand that, when the response to such requests require reference to
data obtained from the other bureau, or to an analytical product based upon data obtained from the
originating bureau, all responses to such inquiries shall be made after consultation with, and with the
concurrence of, the originating bureau.


7. OTHER PROVISIONS. Nothing in this MOA is intended to conflict with existing laws,
regulations, DHS directives, or other guidance. If a term of this MOA is inconsistent with such
authority, then that term shall be invalid, but the remaining terms and conditions of this MOA shall
remain in full force and effect.


8. EFFECTIVE DATE. The terms of this MOA will become effective upon signature of this
document.


9. MODIFICATIONS- This MOA may be modified with the mutual written consent of the parties.


10. REVIEW. The parties agree to undertake a review of the MOA within one (1) year to determine
whether any modifications are necessary to more effectively accomplish the goals of the MOA.
Failure to conduct a review, however, will not result in the termination of this MOA.


                              Review of the USCIS Benefit Fraud Referral Process

                                                   Page 52
Appendix H
Memorandum of Agreement



11. TERMINATION. The terms of this MOA, and any subsequent modifications consented to by
both parties, will remain in effect unless terminated as provided herein. Either party may terminate
this MOA subsequent to a 60-day written notice to the other party.

SIGNATORY AUTHORITIES:

(signed)                                                (signed)
Dr. Emilio T. Gonzalez                                  Julie L. Myers
Director                                                Assistant Secretary
U.S. Citizenship and Immigration Services               U.S. Immigration and Customs Enforcement
Department of Homeland Security                         Department of Homeland Security

Date: 2/14/2006                                         Date: 2/9/2006




                             Review of the USCIS Benefit Fraud Referral Process

                                                  Page 53
Appendix I
Major Contributors to this Report



Appendix I:   Major Contributors to this Report
                      Douglas Ellice, Chief Inspector, Department of Homeland Security, Office of
                      Inspections

                      Lorraine Eide, Senior Inspector, Department of Homeland Security, Office of
                      Inspections

                      Megan McNeely, Inspector, Department of Homeland Security, Office of
                      Inspections

                      Russell Lundberg, Inspector, Department of Homeland Security, Office of
                      Inspections




                               Review of the USCIS Benefit Fraud Referral Process

                                                    Page 54
Appendix J
Report Distribution


Appendix J:   Report Distribution
                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      General Counsel
                      Chief of Staff
                      Deputy Chief of Staff
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary, Policy
                      Assistant Secretary, Public Affairs
                      Assistant Secretary, Legislative Affairs
                      Assistant Secretary, United States Immigration and Customs Enforcement
                      Director, United States Citizenship and Immigration Services
                      Director, National Security and Records Verification Directorate, USCIS
                      Deputy Assistant Director for Investigations, ICE
                      Chief Security Officer
                      Chief Privacy Officer
                      USCIS Audit Liaison
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                             Review of the USCIS Benefit Fraud Referral Process

                                                  Page 55
               Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


               OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
